                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              GRAFTON JOB CORPS CENTER:
                                              ALLEGATIONS THAT STUDENT
                                              ATTENDANCE AND TRAINING DATA
                                              WERE OVERSTATED




                                                                     Date:   September 28, 2007
                                                            Report Number:   09-07-004-01-370
                                                    U.S. Department of Labor
BRIEFLY…                                            Office of Inspector General
                                                    Office of Audit

Highlights of Report Number 09-07-004-01-370,       WHAT OIG FOUND
Grafton Job Corps Center: Allegations that          We concluded the allegations had merit because
Student Attendance and Training Data were           Grafton officials had not followed the Policy and
Overstated, to the National Director, Office of     Requirements Handbook when showing students
Job Corps, dated September 28, 2007.                in leave status, placing students in absent
                                                    without leave status, and graduating vocational
WHY READ THE REPORT                                 students. Non-compliance with the Policy and
The report discusses the audit results regarding    Requirements Handbook directly resulted in
our assessment of a hotline complaint we            overstating both performance measures.
received on the Grafton Job Corps Center. The
Grafton Job Corps Center is operated by Adams       Grafton officials overstated the On-Board
and Associates, Inc. (Adams).                       Strength performance measure by retaining
                                                    students who should have been separated. The
WHY OIG CONDUCTED THE AUDIT                         audit     results   disclosed    a    pattern of
The Office of Inspector General (OIG) received a    inappropriately showing students in unpaid
hotline complaint regarding the Grafton Job         administrative leave and absent without leave
Corps Center (Center). The complainant alleged      status. These practices resulted in “extending
Grafton      officials   manipulated      student   the stay” of these students by 910 days, and as
accountability data and training records in order   a result, the Contractor owes liquidated damages
to enhance the performance measures of On-          totaling $56,824.
Board Strength and Vocational Completions.
                                                    Grafton officials did not materially overstate the
Our audit objective was to determine if the         Vocational Completions performance measure.
allegations had merit. Specifically, we answered    However, we identified four students of 34 who
the following questions:                            were shown as having completed their vocation
                                                    even though their Training Activity Reports did
Did Grafton officials overstate the Center’s On-    not support their completion.        As a result,
Board Strength performance measure by               students may not have been fully trained for their
violating unpaid administrative leave or absent     vocations and they may have received unearned
without leave requirements in the Policy and        bonuses for vocations not completed.
Requirements Handbook? As a result, did the
Center retain students who should have been         WHAT OIG RECOMMENDED
separated?                                          The OIG recommended the Office of Job Corps
                                                    recover liquidated damages of $56,824 from
Did Grafton officials overstate the Center’s        Adams; monitor and verify that Grafton officials
Vocational Completions performance measure          have taken actions to strengthen the control
by graduating students who did not satisfy all      environment to ensure proper recording of leave,
training requirements?                              attendance, and vocational completions; and
                                                    monitor the accuracy of reported performance
READ THE FULL REPORT                                measures of Adams’ operated centers.
To view the report, including the scope,
methodology, and agency response, go to:            HOW AUDITEE RESPONDED
http://www.oig.dol.gov/public/reports/oa/2007/09-   The Office of Job Corps generally agreed with
07-004-01-370.pdf                                   our recommendations and agreed to do a
                                                    detailed review of our results and to assess
                                                    liquidated damages.     They also agreed to
                                                    monitor the Grafton Job Corps Center and other
                                                    Adams’ operated centers.
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ................................................................................................... 1

Assistant Inspector General’s Report....................................................................... 3
       Finding 1. Grafton officials overstated the Center’s On-Board Strenght
                   performance measure........................................................................ 4
       Finding 2. Grafton officials did not materially overstate the Center’s
                   Vocational Completions performance measure ................................. 9

Exhibits...................................................................................................................... 12
       Exhibit 1 Students Who Completed Their Vocational Training ......................... 13
       Exhibit 2 Absences Preceding Separation from the Center.............................. 14
       Exhibit 3 Consecutive UPAL and AWOL during the Year................................. 15

Appendices ............................................................................................................... 16
       Appendix A Background ..................................................................................... 17
       Appendix B Objectives, Scope, Methodology, and Criteria ................................ 18
       Appendix C Acronyms and Abbreviations .......................................................... 21
       Appendix D Agency Response to Draft Report .................................................. 22




                                                                          Grafton JCC Allegations of Overstated Data
                                                                                       Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General




Executive Summary
We conducted a performance audit of the Grafton Job Corps Center (Center),
operated by Adams and Associates, Inc. (Adams), to determine the merits of a hotline
complaint. The complainant alleged Grafton officials manipulated student leave,
absent without leave, and training records in order to enhance the performance
measures of On-Board Strength and Vocational Completions. Job Corps uses these
and other performance and outcome measures as part of a comprehensive
management system to assess program effectiveness. The Center is located in
Worcester County, Massachusetts.

Our audit objective was to determine if the allegations had merit. Specifically, we
answered the following questions:

 1. Did Grafton officials overstate the Center’s On-Board Strength performance
    measure by violating unpaid administrative leave or absent without leave
    requirements in the Policy and Requirements Handbook (PRH)? As a result, did
    the Center retain students who should have been separated?

 2. Did Grafton officials overstate the Center’s Vocational Completions performance
    measure by graduating students who did not satisfy all training requirements?


To accomplish this objective, we determined whether Grafton officials adhered to the
PRH governing when to authorize student leave, place a student in absent without
leave status, and graduate a vocational student.

Results

Grafton officials overstated the performance measure of On-Board Strength (OBS).
Moreover, we concluded the allegation had merit because Grafton officials had not
followed PRH requirements when showing students in leave status and placing
students in absent without leave status. Non-compliance with the PRH directly
resulted in overstating the OBS performance measure.

Grafton officials overstated the OBS performance measure by retaining students who
should have been separated. This occurred because of the lack of an effective control
environment for monitoring and reporting student leave. The audit results disclosed a
pattern of inappropriately showing students in unpaid administrative leave and absent
without leave status. Moreover, these practices resulted in “extending the stay” of
students by 910 days, and as a result, Adams owes liquidated damages totaling
$56,824.

Further, Grafton officials did not materially overstate the performance measure of
Vocational Completions. However, we identified 4 students of 34 students we

                                                    Grafton JCC Allegations of Overstated Data
                                          1                      Report No. 09-07-004-01-370
                                        U.S. Department of Labor – Office of Inspector General


reviewed who were shown as having completed their vocation even though their
Training Activity Reports (TARs) did not support their completion. This occurred
because of the weak control environment at the Center that included not properly
monitoring TARs to assure all training was completed. As a result, students may not
have been fully trained for their vocations, and they may have received unearned
bonuses for vocations not completed.

Recommendations

The OIG recommended the National Director, Office of Job Corps, direct the Regional
Job Corps Administrator to take actions designed to correct the aforementioned
problems. In general, we recommended the Regional Administrator recover liquidated
damages of $56,824 from Adams (through the Contracting Officer); monitor and verify
that Grafton officials have taken actions to strengthen the control environment to
ensure proper recording of leave, attendance, and vocational completions; and
monitor the accuracy of reported performance measures of Adams-operated centers.

Auditee Response

The Office of Job Corps concurred with each of our recommendations and agreed to:

 •   Conduct a detailed review of student files at the Center and provide
     recommendations to the Contracting Officer for liquidated damages.

 •   Monitor the Center’s documentation practices for recording and reporting leave
     and attendance.

 •   Enhance data integrity requirements and data integrity audits on active and
     separated student files as a part of their annual performance assessment of each
     center.

 •   Review, monitor, and verify that the Center has taken actions to strengthen its
     documentation practices to ensure the proper recording and reporting of
     vocational completions.

 •   Review, monitor, and verify the accuracy of reported vocational completions at
     other Adams’ operated centers.

OIG Conclusion

The OIG agrees that the above corrective actions are appropriate, and we consider
the recommendations resolved and open. The recommendations will be closed upon
our review and verification following Job Corps’ completion of its proposed corrective
actions.



                                                   Grafton JCC Allegations of Overstated Data
                                          2                     Report No. 09-07-004-01-370
                                                  U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                        Office of Inspector General//
                 Washington, D.C. 20210




                             Assistant Inspector General’s Report



Esther R. Johnson
National Director
Office of Job Corps
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210


We conducted a performance audit of the Grafton Job Corps Center (Center) in
response to a hotline complaint. The complaint alleged the Center’s operator, Adams
and Associates, Inc. (Adams), manipulated student leave, absent without leave
(AWOL), and training records in order to enhance the Center’s performance.

According to the complainant, Grafton officials discussed strategies to overstate
performance outcomes during the Center’s Outcome Measurement Standards
meetings. When Grafton officials projected attendance to be below established goals,
the complainant alleged Center staff manipulated student attendance records to
extend the student’s enrollment, even though they no longer met the Policy and
Requirements Handbook’s (PRH) enrollment criteria.1 In addition, the complainant
alleged the Center’s students were shown as having completed vocational training
even though their trade-related proficiencies shown in their Training Activity Reports
(TARs) were not sufficient to meet the vocation completion requirements specified in
the PRH.2

Our objective was to determine if the allegations had merit. Specifically, we sought to
determine whether Grafton officials manipulated student unpaid administrative leave
(UPAL) and AWOL to enhance the On-Board Strength (OBS) performance measure.
In addition, we sought to determine whether Grafton officials manipulated training
records to enhance the Vocational Completions performance measure. To
accomplish this objective, we assessed the Center’s compliance with PRH

1
  The PRH at Exhibit 6-1, Page 3 of 3, states in-part, “that student absences should not exceed six
consecutive AWOL training days or twelve AWOL training days within a six month period without
mandatory separation, unless creditable and verifiable explanations exist to explain the students
absence.”
2
  The PRH at Section 3.13 R2.d states in-part, “centers shall credit students with acquistions of skills
only after they have demostrated compentency in the skills at the level indicated on the approved
TARS.”

                                                                Grafton JCC Allegations of Overstated Data
                                                    3                        Report No. 09-07-004-01-370
                                        U.S. Department of Labor – Office of Inspector General


requirements governing leave, AWOL, and training records; and answered the
following two questions:

 3. Did Grafton officials overstate the Center’s OBS performance measure by
    violating UPAL or AWOL requirements in the PRH? As a result, did the Center
    retain students who should have been separated per requirements in the PRH?

 4. Did Grafton officials overstate the Center’s Vocational Completions performance
    measure by graduating students who did not satisfy all training requirements?

 5. We conducted the audit in accordance with Government Auditing Standards for
    performance audits issued by the Comptroller General of the United States. We
    have provided background information in Appendix A, and our audit objective,
    scope, methodology, and criteria sections are provided in Appendix B.


A detailed discussion about how Grafton officials overstated its OBS, and how Grafton
officials showed students as having completed vocational training who may not have
completed all required training is presented below, along with our recommendations
for improvement.

Objective 1 – Did Grafton officials overstate the Center’s OBS performance
measure by violating UPAL or AWOL requirements in the PRH? As a result, did
the Center retain students who should have been separated per requirements in
the PRH?
Finding 1. Grafton officials overstated the Center’s OBS performance measure

In order to report better than actual accomplishments, Grafton officials overstated the
Center’s performance measure of OBS by inappropriately placing students either on
UPAL or AWOL in violation of leave requirements specified in the PRH. This occurred
because of the lack of an effective control environment for monitoring and reporting
student leave. Using statistical sampling techniques, we tested Center student
records and examined their leave histories and absences recorded as UPAL or
AWOL. The results of our tests of student leave disclosed patterns of UPAL and
AWOL use that were in direct violation of the PRH. Moreover, these practices directly
led to “extending the stay” of students who should have been separated, which
overstated the Center’s reporting of OBS. In some instances, students were shown as
being on UPAL and AWOL, even though they were not “active participants” at the
Center. As a result, the Center overstated its reporting of OBS by a total of 910 days,
and Adams owes $56,824 in liquidated damages.

Using our judgment to identify the most likely situations of excessive leave and AWOL,
we grouped Center students who had:

 •   Completed Vocational Training
 •   Absences Preceding Separation from the Center

                                                   Grafton JCC Allegations of Overstated Data
                                          4                     Report No. 09-07-004-01-370
                                                U.S. Department of Labor – Office of Inspector General


    •   Consecutive UPAL and AWOL during the Year

The results of our tests are presented below along with the impact on the OBS
performance measure. In addition, we also discussed the Center’s control
environment, which, we concluded, contributed to this problem.

Center Students Who Completed Vocational Training

We used statistical sampling in the testing of student records to determine whether
Grafton officials inappropriately extended the enrollment of students who completed all
vocational training. From a population of 941 students who completed vocational
training between January 1, 2001 and June 30, 2004, we randomly selected and
tested 34 students. In examining the students’ profiles3, leave records, and vocational
training activities, we found Grafton officials inappropriately extended the enrollment
for 7 of these 34 students. Specifically, these students were incorrectly shown in the
leave status of UPAL and AWOL during the time after the students had physically
departed the Center. These PRH violations had the effect of extending each student’s
enrollment from 5 to 63 days, even though those students were no longer at the
Center.

For example:

    •   One student completed his vocational training on August 7, 2002, and physically
        left the Center on August 21, 2002. However, Grafton officials continued to show
        the student in the Center’s OBS by recording him as UPAL or AWOL until
        September 26, 2002. Consequently, the Center overstated this student’s
        enrollment by 28 days, thus bolstering the student OBS.

The six other students had similar patterns of extended UPAL and AWOL. Grafton
officials inappropriately showed these students on UPAL and AWOL, and as a result,
Grafton officials overstated OBS by 194 days. Using the average daily student cost of
$60.804 for the contract years 2001 through 2004, the Center should be required to
pay liquidated damages of $11,795 (Exhibit 1).

Students with Absences Preceding Separation from the Center

Because our review of students who completed vocational training showed improper
use of UPAL and AWOL, we expanded our review to include all students with leave
who separated from the Center in 2004. From a population of 398 students
representing all students who separated from the Center in 2004, we identified 59
students who showed UPAL and AWOL immediately prior to separation. From that
population, we randomly selected 38 students to determine whether their leave
complied with the PRH. Specifically, we reviewed the propriety of student absences
3
 ETA Form 6-40 entitled, “Student Profile,” shows all student training, attendance, and placement
information.
4
 $60.80 is the average daily student cost for contract years 2001 through 2004.

                                                           Grafton JCC Allegations of Overstated Data
                                                  5                     Report No. 09-07-004-01-370
                                               U.S. Department of Labor – Office of Inspector General


when consecutive UPAL and AWOL were recorded immediately preceding the
student’s separation from the Center.

We found 18 of the 38 students’ had leave that was in violation of PRH requirements
for the use of UPAL and AWOL. This included UPAL inappropriately justified as “job
searching” or “student re-thinking commitment to Job Corps,” inadequate AWOL
follow-up documentation, and changing of departure and return dates on leave
request forms. Specific examples included:

    •   One student completed her vocational training requirements on June 5, 2004, left
        the Center on June 17, 2004, and never returned. However, on June 18, 2004,
        Grafton officials placed her on UPAL for 10 training days; then placed her on
        summer break; and then placed her back on UPAL for 15 training days before
        separating her on August 5, 2004. The leave was justified with the explanation
        “job verification,” which is not an authorized justification for UPAL under the PRH.
        Overall, her length of stay was inappropriately increased by 42 training days.

    •   Another student departed the center on UPAL on July 22, 2004, without pre-
        authorized leave and somehow obtained the necessary signatures 3 days after
        departure. Although she was scheduled to return on July 29, 2004, her return
        date was postponed first to August 8th, then August 15th, without the submission
        of new leave forms or a required signature. The student was finally terminated
        on August 24, 2004. Overall, this student’s length of stay was inappropriately
        increased by 25 training days.

Grafton officials inappropriately extended the enrollment of those 18 students by
inappropriately placing the students on UPAL and AWOL. As a result, Grafton officials
overstated its OBS by an additional 326 days. Based upon the 2004 daily student
cost of $62.89,5 the Center should be required to pay liquidated damages of $20,502
(Exhibit 2).

Consecutive UPAL and AWOL during the Year

Because we found UPAL and AWOL was inappropriately used immediately prior to
separation, in violation of the PRH, we examined UPAL and AWOL use for all
students with leave who separated in 2004. We identified 70 students who had
consecutive UPAL and AWOL during the calendar year. From these 70 students, we
randomly selected 38 students for testing. Our examination of student leave forms
and AWOL histories disclosed that Grafton officials did not adhere to PRH
requirements when recording students in UPAL and AWOL status. These actions
improperly prevented the mandatory termination of students under the PRH AWOL
limitations. Specifically, our testing disclosed:

    •   18 of 38 students had UPAL inappropriately noted with reasons that included “job
        searching” and “student re-thinking commitment to Job Corps,” had inadequate
5
The contractual daily student cost for contract year 2004 was $62.89.

                                                          Grafton JCC Allegations of Overstated Data
                                                 6                     Report No. 09-07-004-01-370
                                              U.S. Department of Labor – Office of Inspector General


        AWOL follow-up documentation, and had changing departure and return dates
        on leave request forms.

    •   Grafton officials inappropriately retained these 18 students for a total of 390
        days. These actions circumvented the PRH’s AWOL limits of 6 consecutive
        training days and 12-days within any 180-day period. As a result, Grafton
        officials improperly delayed 18 student separations. This allowed Grafton
        officials to continue to show these 18 students as a part of the Center’s OBS,
        even though this action was in direct violation of the PRH.

We concluded that Grafton officials inappropriately used UPAL and AWOL to retain
students. As a result, the Center overstated its OBS in 2004 by an additional 390
days. Using the 2004 daily student cost of $62.89, the Center should be required to
pay liquidated damages of $24,527 (Exhibit 3).

The Impact of Overstating OBS

Adams violated the provisions of their contract with Job Corps by overstating its OBS
performance measure. Overstated performance data affects management and
procurement decisions at the highest levels within Job Corps. Such decisions include
renewal of center contracts and/or exercise of option years.

Equally important, inaccurate performance data may inhibit Job Corps from effectively
accomplishing its mission to educate and train students. Outreach efforts designed to
recruit new students may have been curtailed, and eligible students may have been
turned away or delayed entry into the Center. These impacts are contrary to Job
Corps’ mission.

Overall, Grafton officials extended student enrollment which overstated OBS by 910
days, resulting in $56,824 in liquidated damages owed to Job Corps (Total dollars
from Exhibits 1, 2, and 3).

The Center’s Control Environment

These problems occurred because a weak control environment allowed Grafton
officials to disregard the PRH. In January 2001 and January 2004, Adams conducted
separate program integrity audits at the Center6. Our review of those program
integrity audit reports disclosed that Adams knew of problems with the Center’s control
environment. Their reports expressed concerns with:



6
 The PRH, Chapter 5.1-R2., entitled ’Quality Assurance,’ requires Center operators to establish
procedures to conduct periodic self evaluations and audits to ensure integrity, accountability, and
prevention of fraud and program abuse. The scope of Adams’ program integrity audit encompassed all
areas involved in the management of student data, which, in-part, included student records,
employability, and training.

                                                         Grafton JCC Allegations of Overstated Data
                                                7                     Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


 •   Heavy use of UPAL and weak justification and documentation supporting student
     change of status from AWOL to UPAL
 •   Lack of AWOL follow-up reports in student personnel files
 •   Inconsistent documentation of required information and approvals on leave forms
 •   Lack of documented follow-up for unexcused absences of non-resident students

However, the actions taken by Grafton officials were not effective in improving the
Center’s control environment. In addition, Job Corps Regional Office did not
effectively monitor the Center’s efforts to correct and improve its control environment.

Recommendations

The OIG recommends that the National Director, Office of Job Corps:

     1. Recover liquidated damages (through the Contracting Officer) of $56,824
        from Adams and Associates.


     2. Monitor and verify that the Center has taken actions to strengthen its control
        environment for recording and reporting leave and attendance.


     3. Monitor and verify the accuracy of reported student leave and attendance at
        other Adams’ operated centers.


Agency Response

In her September 28, 2007, response to the draft report, the National Director of Job
Corps stated that the Office of Job Corps concurred with the report’s
recommendations. She indicated that the Boston Regional Office will conduct a
detailed review of the results and provide its recommendations to the Contracting
Officer who will assess liquidated damages. The Boston Regional Office will also
continue to monitor the center’s documentation practices, subject to the quality
assurance parameters detailed in the PRH and in the Program Assessment Guide
(PAG). Moreover, the monitoring will incorporate the use of desk audits, monitoring
trips, and a corrective action plan from the center to ensure that adequate
documentation and authorization accompanies each leave in accordance with PRH
requirements.

Concerning the report’s recommendation to monitor and verify the accuracy of
reported student leave and attendance at other Adams operated centers, the National
Director stated that the PRH had been revised to incorporate enhanced data integrity
requirements and data integrity audits. Accordingly, all Job Corps Regional Offices
are now adhering to the PRH revision by conducting a sampling of active student files
into their monitoring trips. In addition, the Regional Offices are performing data


                                                    Grafton JCC Allegations of Overstated Data
                                           8                     Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


integrity audits on active and separated student files as a part of the annual
assessment of each center, and the Regional Offices are requiring corrective action
plans from centers and contractors where procedures do not ensure data integrity.


OIG Conclusion

Based on the National Director’s response, we consider these three recommendations
resolved and open. To close these recommendations, the Office of Job Corps needs
to provide documentation showing the corrective actions have been completed.


Objective 2 – Did Grafton officials overstate the Center’s Vocational
Completions performance measure by graduating students who did not satisfy
all training requirements?
Finding 2. Grafton officials did not materially overstate the Center’s Vocational
Completions performance measure

Grafton officials did not materially overstate the Vocational Completions performance
measure. However, we did find 4 students of 34 students we reviewed who’s TARs
did not show they satisfied all training requirements needed to complete their vocation.
This occurred because of the weak control environment at the Center that included not
properly monitoring TARs to assure all training was completed. As a result, the
Center may have graduated students who were not fully trained. Further, if not
corrected, performance data could be adversely affected.

Job Corps establishes proficiencies that students must obtain in their vocation before
the vocation is considered completed. The PRH, Chapter 3.13 R2.d, states that
centers shall “Credit students with acquisition of skills only after they have
demonstrated competency in the skills at the level indicated on the approved TARs.”

We identified a universe of 941 students who were shown to have completed a
vocation from January 1, 2001 through June 30, 2004. We obtained a random sample
of 34 students and reviewed their TARs for training completion. We identified 4
students of the 34 who were shown as having completed their vocation even though
their TARs did not support their completion. Specifically, the TARs did not show that
all mandatory tasks were completed for those 4 students, as follows:

 •   One student who was graduated from the Nursing Assistant vocation had only
     obtained the required level of proficiency in 11 of 39 tasks (28 percent). The
     TAR did not indicate any proficiency in tasks such as transferring a patient in and
     out of bed and assisting a patient in eating.

 •   A Business Clerical student’s TAR showed 16 of 106 tasks (15 percent) rated as
     "1" (not proficient) although a level of “2” in all tasks is required.


                                                    Grafton JCC Allegations of Overstated Data
                                          9                      Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


 •   A student with a Data Entry Clerk vocation did not complete a required
     foundation course in Business Technologies.

 •   A Facilities Maintenance student only had one completed page of the TAR in the
     file.

We attributed these conditions to a weak control environment as previously discussed
in this report. The Center’s controls did not prevent inaccurate reporting of vocational
completions. Specifically, Grafton officials did not monitor the TARs to ensure training
completion. As a result, the Center may have graduated students who were not fully
trained. Further, if not corrected, performance data could be adversely affected.

Graduating students with incomplete TARS has two potential impacts. First, students
may not have been fully trained for their vocation; consequently, this could hamper
their job proficiency and career success. Secondly, students received performance
bonuses for completing a vocation; consequently, students may have received
bonuses not actually earned.

Recommendations

The OIG recommends that the National Director, Office of Job Corps:

     4. Monitor and verify that the Center has taken actions to strengthen its control
        environment to ensure proper recording and reporting of vocational
        completions.

     5. Monitor and verify the accuracy of reported vocational completions at other
        Adams’ operated centers.


Agency Response

In her September 28, 2007, response to the draft report, the National Director of Job
Corps stated that the Office of Job Corps concurred with the report’s
recommendations.

In response to the recommendation to monitor and verify that the center has taken
actions to strengthen its control environment to ensure proper recording and reporting
of vocational completions, the National Director indicated that Job Corps will review,
monitor, and verify that the center has taken actions to strengthen its documentation
practices to ensure proper recording of vocational completions. The Regional Office
will also continue to conduct desk audits and on-center reviews consistent with the
PRH and the PAG. Finally, concerning the recommendation to monitor and verify the
accuracy of reported vocational completions at other Adams’ operated centers, Job
Corps will review, monitor and verify the accuracy of reported vocational completions
at other Adams’ operated centers. This will be accomplished through desk audits,


                                                    Grafton JCC Allegations of Overstated Data
                                          10                     Report No. 09-07-004-01-370
                                      U.S. Department of Labor – Office of Inspector General


scheduled monitoring trips, and program assessments consistent with PRH
requirements.

OIG Conclusion

Based on the National Director’s response, we consider these two recommendations
resolved and open. To close these recommendations, the Office of Job Corps needs
to provide documentation showing the corrective actions have been completed.




Elliot P. Lewis
May 30, 2007




                                                 Grafton JCC Allegations of Overstated Data
                                       11                     Report No. 09-07-004-01-370
           U.S. Department of Labor – Office of Inspector General




Exhibits




                      Grafton JCC Allegations of Overstated Data
            12                     Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                   Exhibit 1


                    Students Who Completed Their Vocational Training


                                                                      Audit             Days
                                                                      Determined        Subject to
                                                   Termination        Termination       Liquidated
No.   Trade            Started      Completed      Date               Date              Damages
      Business         05/06/2002   08/07/2002     09/26/2002         8/29/02           28
      Technician
1
      - Data
      Entry
      Electrician      07/29/2002   10/28/2002     11/07/2002         10/25/05          13
2
      Helper
      Electrician      11/05/2002   02/04/2003     10/23/2003         9/23/03           30
3
      Helper
      Data Entry       10/21/2002   03/14/2003     04/22/2003         4/17/03           05
4
      Clerk
      Facilities       01/28/2002   04/24/2002     08/29/2002         7/29/02           31
5     Maintenan
      ce
      Business         02/19/2001   03/30/2001     10/09/2001         8/8/01            63
      Clerk-
6
      Receptioni
      st
      Nurse            07/17/2002   10/04/2002     02/06/2003         1/13/03           24
7
      Assistant
      Total
      Extended                                                                          194
      Days




                                                    Grafton JCC Allegations of Overstated Data
                                          13                     Report No. 09-07-004-01-370
                          U.S. Department of Labor – Office of Inspector General


                                                                    Exhibit 2


     Absences Preceding Separation from the Center

                                  Audit              Days
     Actual                       Determined         Subject to
N    Termination   Last Date      Termination        Liquidated
o.   Date          of Training    Date               Damages
1    08/05/2004    06/17/2004     06/24/2004         42
2    03/18/2004    03/04/2004     03/11/2004         07
3    02/24/2004    01/25/2004     02/02/2004         22
4    04/01/2004    03/10/2004     03/18/2004         14
5    01/22/2004    12/07/2003     12/15/2003         38
6    04/06/2004    03/17/2004     03/25/2004         12
7    04/15/2004    03/21/2004     03/29/2004         17
8    02/19/2004    01/28/2004     02/10/2004         09
9    03/22/2004    02/26/2004     03/05/2004         17
1
     08/17/2004    07/28/2004     08/05/2004
0                                                    12
1
     08/24/2004    07/22/2004     07/30/2004
1                                                    25
1
     06/14/2004    05/20/2004     05/28/2004
2                                                    17
1
     09/02/2004    08/12/2004     08/20/2004
3                                                    13
1
     01/07/2004    12/03/2004     12/13/2003
4                                                    25
1
     03/22/2004    03/12/2004     03/12/2004
5                                                    05
1
     03/04/2004    02/29/2004     02/16/2004
6                                                    17
1
     06/16/2004    06/02/2004     06/10/2004
7                                                    06
1
     09/16/2004    08/11/2004     08/19/2004
8                                                    28
     Total
     Extended                                        326
     Days




                                     Grafton JCC Allegations of Overstated Data
                           14                     Report No. 09-07-004-01-370
                                        U.S. Department of Labor – Office of Inspector General


                                                                                  Exhibit 3


                  Consecutive UPAL and AWOL during the Year

                          Audit                                 Days
                          Determined          Actual            Subject to
                          Termination         Termination       Liquidated
            No.           Date                Date              Damages
            1             08/19/2004          09/02/2004        0*
            2             01/27/2004          02/12/2004        16
            3             08/19/2004          09/30/2004        42
            4             08/20/2004          10/14/2004        55
            5             03/22/2004          03/12/2004        0*
            6             06/09/2004          06/15/2004        6
            7             06/10/2004          06/16/2004        0*
            8             03/30/2004          04/5/2004         6
            9             06/22/2004          07/22/2004        30
            10            06/16/2004          08/05/2004        50
            11            08/24/2004          09/30/2004        36
            12            08/23/2004          09/09/2004        17
            13            01/20/2004          03/04/2004        44
            14            03/08/2004          04/06/2004        0*
            15            08/17/2004          10/28/2004        48
            16            05/25/2004          06/15/2004        21
            17            06/15/2004          06/24/2004        7
            18            05/17/2004          06/03/2004        12
            19            02/18/2004          03/04/2004        0*
            Total
            Extended                                            390
            Days

*To prevent double counting, we have indicated the student in this sample who was
not counted in our results, because that student’s review was previously included in
our Exhibit 2, entitled, “Absences Preceding Separation from the Center”

                                                   Grafton JCC Allegations of Overstated Data
                                         15                     Report No. 09-07-004-01-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                        Grafton JCC Allegations of Overstated Data
              16                     Report No. 09-07-004-01-370
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

Job Corps is a national residential training and employment program administered by
the Office of Job Corps within the Department of Labor. The program addresses the
multiple barriers to employment faced by at-risk youth throughout the United States.
The Job Corps program is currently authorized by Title I, Subtitle C, of the Workforce
Investment Act of 1998.

Job Corps provides comprehensive career development services to students including
academic, vocational, social, and independent living skills, career readiness training,
and support services. The unique combination of services provided through Job
Corps is intended to prepare youth to obtain and hold gainful employment, pursue
further education or training, or satisfy entrance requirements for a career in the
Armed Forces.

Nationwide, Job Corps has 126 centers supporting about 43,000 students. Job Corps
issued contracts with private companies to operate 94 of these centers with 4
additional satellite centers. Federal agencies operate the remaining 28 centers.
Overall, Job Corps spends approximately $1.5 billion per year to operate the centers.

In May 2002, Job Corps began implementing performance-based contracts. These
contracts tie option years, incentive fees, and bonuses directly to contractor
performance.

Job Corps’ Boston Regional Office is responsible for selecting and supervising the
Center’s contracted operator. The Center has a student capacity of 300 and annual
expenses of about $6.7 million. Located in Worcester County, Massachusetts, the
Center is managed by Adams and Associates of Nevada. The Center trains students
in a variety of trades ranging from business technology to culinary arts, electrical
wiring, plumbing, and medical office technology.




                                                   Grafton JCC Allegations of Overstated Data
                                         17                     Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We initiated the audit to determine the merits of a hotline complaint referral dated
March 2, 2004. The complaint was referred to the OIG by the Government
Accountability Office (GAO). GAO had received an allegation from a complainant
regarding the Grafton Job Corps Center. The complainant alleged Grafton officials
manipulated student attendance and training records in order to enhance the OBS and
Vocational Completions performance measures.

Our audit objective was to determine if the allegations had merit. Specifically, we
answered the following questions:

     6. Did Grafton officials overstate the Center’s OBS performance measure by
        violating unpaid administrative leave or absent without leave requirements in
        the PRH? As a result, did the Center retain students who should have been
        separated?

     7. Did Grafton officials overstate the Center’s Vocational Completions
        performance measure by graduating students who did not satisfy all training
        requirements?


Scope

Our audit reviewed the allegation included in the hotline complaint referral dated
March 2, 2004. The complainant alleged Grafton officials manipulated student
attendance and training records in order to enhance the OBS and Vocational
Completions performance measures.

Our audit scope focused on Center activities from January 1, 2001 through
December 31, 2004.

Our testing of internal controls focused only on those controls related to our audit
objective of determining whether the allegations had merit and whether the two
performance measures noted above were reliable. Our audit work at the Center did
not include a review of the internal controls used by Adams to ensure compliance with
all Job Corps policies and requirements. Our review of internal controls was not
intended to form an opinion on the adequacy of management controls overall, and we
do not render such an opinion.

We conducted audit fieldwork between September 2004 and February 2006 and in
April and May 2007, both at the Center in Grafton, Massachusetts and at our offices in
San Francisco, California. Our audit fieldwork and reporting was delayed due to
unanticipated staffing changes and resource constraints.

                                                    Grafton JCC Allegations of Overstated Data
                                          18                     Report No. 09-07-004-01-370
                                        U.S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

In determining the merits of the allegation regarding manipulation of the student OBS
and vocational completions performance outcomes reported by the Center, we
obtained an understanding of the PRH. In addition, we reviewed Adams’ procedures
related to AWOL, administrative leave, and separations. Lastly, we analyzed their
internal and management controls for processing, documenting and ensuring the
integrity of student enrollment information. We also interviewed the complainant, Job
Corps’ and Center’s management and staff.

Further, we used a three-pronged testing approach:

     8. We selected a statistical sample of 34 students drawn from 941 vocational
        completions who terminated during January 1, 2001 through June 30, 2004,
        to determine whether Grafton officials manipulated the enrollment of students
        beyond their vocational completion and prior to student separation.

        We examined the student leave records, TARs, and other vocational training
        activities listed on the student’s profile (ETA Form 6-40).

        Because the sampling errors were high due to the small size of the sample
        and more variability in the population than expected when the sample was
        estimated, we are reporting only those items tested and have elected to not
        project our results.

     9. From a universe of 398 students with leave who separated in 2004, we
        identified 59 students whose termination was immediately preceded by two or
        more types of leave. From this population of 59 students, we selected a
        statistical sample of 38 students and analyzed their leave records.

     10. From a universe of 398 students with leave who separated in 2004, we
         identified 70 students with consecutive UPAL and AWOL activity throughout
         the calendar year to identify inappropriate use of UPAL to cover AWOL and
         prevent student terminations. From this population of 70, we selected a
         statistical sample of 38 students.




                                                   Grafton JCC Allegations of Overstated Data
                                         19                     Report No. 09-07-004-01-370
                                         U.S. Department of Labor – Office of Inspector General


Specifically, we reviewed the files to determine whether Grafton officials:

 •   Extended student termination dates beyond the students’ actual departures by
     using a series of paid and unpaid administrative leave, AWOL, and Present for
     Duty Off Center (PDOF) statuses

 •   Backdated students’ administrative leave to cover AWOL days and prevent
     AWOL separation

 •   Allowed students to exceed six consecutive AWOL training days or twelve
     AWOLs within a six month period without separating them as required by Job
     Corps policy

 •   Allowed students to exceed 30 UPAL days in one year without regional office
     approval

 •   Extended termination dates of students completing vocational programs by
     requiring or allowing them to stay at the center for excessive periods after
     graduation

To gauge the reliability of the computerized data provided to us by Job Corps, we
reviewed the DOL-OIG website for audit reports on Job Corps computer systems;
discussed audit coverage with the OIG director of information technology audits; and
also considered the results of audit testing in related Job Corps audits. We concluded
that we were able to rely on the computerized data provided to us by Job Corps.


Criteria

In addressing the audit objectives, we reviewed relevant Federal laws, regulations and
related guidance. These included:

 •   Workforce Investment Act of 1998
 •   Government Performance and Results Act of 1993
 •   Job Corps PRH
 •   Grafton Job Corps Center 2001-2004 Contract
 •   Grafton Job Corps Center Standard Operating Procedures
 •   United States Code, Title 29




                                                    Grafton JCC Allegations of Overstated Data
                                          20                     Report No. 09-07-004-01-370
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix C
Acronyms and Abbreviations

AWOL       Absent Without Leave
CIS        Center Information System
GED        General Educational Development
OBS        On Board Strength
OIG        Office of Inspector General
PAG        Program Assessment Guide
PDOF       Present for Duty Off-Center
PRH        Policy and Requirements Handbook
PY         Program Year
TAR        Training Achievement Record
UPAL       Unpaid Administrative Leave




                                              Grafton JCC Allegations of Overstated Data
                                   21                      Report No. 09-07-004-01-370
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Agency Response to Draft Report




                                             Grafton JCC Allegations of Overstated Data
                                   22                     Report No. 09-07-004-01-370
U.S. Department of Labor – Office of Inspector General




           Grafton JCC Allegations of Overstated Data
 23                     Report No. 09-07-004-01-370
                                       U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210




                                                  Grafton JCC Allegations of Overstated Data
                                        24                     Report No. 09-07-004-01-370
